HHS/OIG-Audit--"Operation Restore Trust Review of Community Outreach for the Education of Seniors Community Mental Health Center, Provider No. 10-4787, Miami, Florida, (A-04-97-02139)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Review of Community Outreach for the Education of Seniors Community Mental Health Center,
Provider No. 10-4787, Miami, Florida," (A-04-97-02139)
January 30, 1998
Complete
Text of Report is available in PDF format (1.03 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Community Outreach for the Recreation and Education of Seniors, a Community Mental Health Center located in Miami,
Florida, received reimbursement for partial hospitalization services provided to Medicare beneficiaries. Our audit showed
that the center did not meet certification requirements established under Sections 1916(c)(4) of the Public Health Service
Act and 1861 of the Social Security Act. Further, we found that none of the 20 beneficiaries included in our sample review
were eligible to receive partial hospitalization services and that $185,237 of the $352,061 claimed for services to the
sample beneficiaries did not meet Medicare coverage and reimbursement criteria.
Based on the audit, we recommended that the Health Care Financing Administration (HCFA) instruct the fiscal intermediary
to recover the identified overpayments. Payments to the center were suspended without notice and HCFA's Miami Field Office
recommended termination of the center's provided agreement under the Medicare program.